BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, here by certify that 1 unbound and
40 copies of the foregoing Amicus Brief of Christian
Family Coalition (CFC) Florida, Inc. in Support of the
Petition for Writ of Certiorari in 19-635, Donald J.
Trump v. Cyrus R. Vance, Jr., in His Official Capacity
as District Attorney of the County of New York, et al.,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
25th day of November, 2019:
Jay Alan Sekulow
Constitutional Litigation and Advocacy Group, P.C.
1701 Pennsylvania Ave, NW, Ste. 200
Washington, DC 20006
(202) 546-8890
j sekulow@claglaw .com

Counsel for Petitioner
Carey R. Dunne
New York County District Attorney's Office
One Hogan Place
New York, NY 10013
(212) 335-9000
d unnec@dany. nyc. gov

Counsel for Respondent
Cyrus R. Vance, Jr., in his official capacity as district
attorney of the County of New York

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Jerry D. Bernstein
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5511
jbernstein@blankrome.com

Counsel for Respondent
Mazars USA LLP
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
Supreme CtBriefs@USDOJ.gov

Counsel for United States
Dennis Grossman
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 25, 2019.

D

DonnaJ.W~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

Ji I rE Nl~E KERSHNER
;i ,ry Pt1b/1r;, Slate of Ohio
,I '/ Cv,,1n11ssion Expires

:h1 .rary 21, 2023

